              The Office of Appeals Should Strengthen and
                Reinforce Procedures for Collection Due
                             Process Cases

                                  September 2005

                        Reference Number: 2005-10-138




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    September 1, 2005


      MEMORANDUM FOR CHIEF, APPEALS



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                       Final Audit Report - The Office of Appeals Should Strengthen
                                     and Reinforce Procedures for Collection Due Process Cases
                                     (Audit # 200410033)


      This report presents the results of our statutory review of the Office of Appeals
      (Appeals) Collection Due Process (CDP) procedures. The overall objective of this
      review was to determine whether the Internal Revenue Service (IRS) complied with the
      provisions of 26 United States Code (U.S.C.) Sections (§§) 6320 and 6330 when
      taxpayers exercised their right to appeal the filing of a lien or a notice of intent to levy.1
      The Treasury Inspector General for Tax Administration is required to determine annually
      if the IRS complied with the legal guidelines and procedures for the filing of a notice of
      lien or a notice of intent to levy and the right of the taxpayer to appeal.2
      In summary, we could not determine if the IRS complied with legal guidelines and
      required procedures to protect taxpayer rights because a significant portion of the
      Appeals CDP and Equivalent Hearing closed case files we requested could not be
      located or did not contain sufficient documentation. As such, we could not determine
      whether all Appeals actions were appropriate. In certain instances, the missing and
      incomplete files could affect taxpayers because if a taxpayer has a change in
      circumstances that affects the Appeals determination, or if the Collection function does
      not properly carry out an Appeals determination, the case can come back to Appeals.
      Because of the missing documentation, similar documentation would have to be
      gathered to effectively resolve the case.
      In some instances, hearing officers did not comply with the procedural and legal
      requirement to document whether they had any prior involvement with the unpaid tax.3


      1
        26 U.S.C. §§ 6320 and 6330 (Supp. IV 1998).
      2
        26 U.S.C. § 7803(d)(1)(A)(iii) and (iv) (Supp. IV 1998).
      3
        Hearing officers are either Appeals Officers or Settlement Officers.
                                                       2

Moreover, some Appeals determination letters did not contain clear and detailed
explanations of the basis for the hearing officers’ decisions and did not adequately
communicate the results of the hearings to the taxpayers. Some determination letters
did not address the specific issues raised or tax periods discussed by the taxpayers in
their hearing requests. Although Appeals provides guidance, including a Determination
Letter Guide, to assist hearing officers in preparing determination letters, the guidance
was not always followed.
Appeals case files did not always contain documentation that Appeals verified the
timeliness of the hearing request or the date suspension of collection activity should
begin. Specific computer codes are used to indicate the suspension of collection
activity and to recalculate the expiration date for the collection statute. When these
codes are missing, inappropriate collection activity may continue, and the expiration
date for the collection statute will not be recalculated.
From our review of Equivalent Hearing cases, we concluded these cases were properly
classified. All Equivalent Hearing cases in our sample were instances in which the
taxpayers’ hearing requests were not filed timely. As such, the taxpayers were not
entitled to CDP hearings. For an Equivalent Hearing case, the IRS is not required to
suspend collection action and the taxpayer does not have the right to a judicial review.
We recommended the Chief, Appeals, evaluate case control procedures to identify
weaknesses in the system and remind personnel of the requirement to retain all
necessary supporting documentation according to current procedures and guidance.
We also recommended the Chief, Appeals, reiterate the requirement to include the
impartiality statement in the determination letters and case files and remind Appeals
managers to verify this during case reviews. The managers should ensure the
determination letters adhere to current IRS guidance and procedures. We also
recommended hearing officers and managers be reminded to verify hearing requests
are properly screened for timeliness and correctness of the suspension of collection
activity. In addition, a statement and supporting documentation should be included in
the Appeals case file to indicate verification was conducted.
Management’s Response: The Office of Appeals agreed with the findings and
recommendations in this report. Appeals has begun the process of centralizing the
closing and maintenance of office files for all CDP cases into two campus4 locations,
which should minimize the instances of missing case files. Procedures will be updated
and communicated to employees to reinforce the requirement to retain necessary
documentation that supports the Appeals decision and the taxpayer’s hearing request.
In conjunction with this effort, Appeals is working on the Electronic Case File
programming and equipment procurement for the creation of paperless files, which
should minimize the instances of missing documents in case files. Appeals has added
guidance for documenting “no prior involvement” when securing a CDP summary notice
of determination and will make it mandatory to include a contact letter that incorporates

4
 The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                             3

the necessary wording to meet the impartiality documentation requirement. In addition,
Appeals will emphasize the need for the impartiality statement through quarterly
meetings and will monitor compliance through the Appeals Quality Measurement
System.
Appeals has incorporated an example of how to prepare a determination letter in both
the Determination Letter Guide and the latest revision of the Appeals procedures. The
changes will be highlighted through meetings with the Area Collection Contact
coordinators and shared at group meetings with employees working CDP cases. Lastly,
to ensure timely and accurate suspension of collection activity, Appeals is planning to
assume full responsibility for the initial input of the computer codes that signal the
suspension of collection activity and recalculation of the expiration date for the collection
statute. Until Appeals assumes this responsibility in late 2005, employees will be
reminded through meetings and training methods of the verification and documentation
requirements. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
           The Office of Appeals Should Strengthen and Reinforce Procedures for
                               Collection Due Process Cases




                                                  Table of Contents


Background ............................................................................................... Page 1
Some Office of Appeals Case Files Could Not Be Located
or Were Incomplete ................................................................................... Page 4
         Recommendations 1 and 2: ...........................................................Page 6

Impartiality Statements Were Not Documented As Required
for Collection Due Process Determinations............................................... Page 7
         Recommendation 3: .......................................................................Page 8

Determination Letters Were Not Clear or Did Not Address
All Issues Raised by the Taxpayers .......................................................... Page 9
         Recommendation 4: .......................................................................Page 10

The Office of Appeals Is Not Consistently Verifying the
Suspension of Collection Activity .............................................................. Page 11
         Recommendation 5: .......................................................................Page 13

Equivalent Hearing Cases Were Properly Classified ................................ Page 13
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 14
Appendix II – Major Contributors to This Report ....................................... Page 17
Appendix III – Report Distribution List ....................................................... Page 18
Appendix IV – Outcome Measures............................................................ Page 19
Appendix V – Management’s Response to the Draft Report ..................... Page 22
        The Office of Appeals Should Strengthen and Reinforce Procedures for
                            Collection Due Process Cases

                                When initial contacts by the Internal Revenue Service (IRS)
Background
                                do not result in the successful collection of unpaid tax, the
                                IRS has the authority to attach a claim, commonly referred
                                to as a lien, to the taxpayer’s assets.1 The IRS also has the
                                authority to work directly with financial institutions and
                                other parties to obtain funds owed by a taxpayer;2 this is
                                commonly referred to as a levy.
                                Since February 1996, IRS procedures have allowed
                                taxpayers to appeal the filing of liens and proposed or actual
                                levies. However, this protection was not mandated by law.
                                If the IRS did not follow its own procedures, there was no
                                remedy available to the taxpayer. Based on concerns that
                                taxpayers were not always provided adequate notice and
                                that appeal rights were needed for liens and levies, the IRS
                                Restructuring and Reform Act of 1998 codified this
                                protection into law.3
                                Since January 19, 1999, the IRS has been required to notify
                                taxpayers in writing that a lien has been filed or that it
                                intends to levy.4 A taxpayer is allowed to appeal the lien or
                                levy action through the Collection Due Process (CDP) by
                                filing a hearing request.5 This hearing request must be
                                received within 30 calendar days plus 5 business days of the
                                filing of the lien or within 30 calendar days from the date of
                                the levy notice.6 If a taxpayer’s hearing request is submitted
                                on time, the IRS will suspend all tax collection efforts and
                                the Office of Appeals (Appeals) will provide the taxpayer a
                                CDP hearing, after which the taxpayer has the right to a
                                judicial review if he or she does not agree with the Appeals
                                decision. If a taxpayer’s hearing request is not submitted
                                timely, Appeals will provide the taxpayer an Equivalent
                                Hearing and consider the same issues as in a CDP hearing;


                                1
                                  26 United States Code (U.S.C.) Section (§) 6321 (1994).
                                2
                                  26 U.S.C. § 6331 (1994 & Supp. IV 1998).
                                3
                                  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                4
                                  26 U.S.C. §§ 6320(a) and 6330(a) (Supp. IV 1998) and Code of
                                Federal Regulations (C.F.R.) §§ 301.6320-1 and 301.6330-1 (2002).
                                5
                                  Taxpayers can use Request for a Collection Due Process Hearing
                                (Form 12153) or other similar written communication to request a CDP
                                hearing.
                                6
                                  26 U.S.C. §§ 6320 and 6330 (Supp. IV 1998).
                                                                                               Page 1
The Office of Appeals Should Strengthen and Reinforce Procedures for
                    Collection Due Process Cases

                        however, collection action is not required to be suspended
                        and the taxpayer does not have the right to a judicial review.
                        Taxpayers are entitled to one hearing per tax period for
                        which a notice of lien or intent to levy has been issued. The
                        hearing is conducted by an Appeals Officer or Settlement
                        Officer (hearing officer) who had no prior involvement with
                        the unpaid tax.7 During the hearing, the hearing officer
                        must verify whether the requirements of all applicable laws
                        or administrative procedures were met related to the lien or
                        levy. The hearing officer must also address any issues the
                        taxpayer may raise relevant to the unpaid tax or the
                        proposed lien or levy, such as whether the taxpayer is an
                        innocent spouse; determine if collection actions were
                        appropriate; and decide if other collection alternatives
                        would facilitate the payment of the tax. The hearing officer
                        must determine whether the proposed collection action
                        balances efficient tax collection with the taxpayer’s
                        legitimate concerns. The taxpayer may not raise an issue
                        that was considered at a prior administrative or judicial
                        hearing if the taxpayer participated meaningfully in the prior
                        proceeding.
                        At the conclusion of a hearing, Appeals issues to the
                        taxpayer a CDP determination letter,8 CDP summary notice
                        of determination,9 or Equivalent Hearing decision letter.10
                        These letters present the hearing officer’s findings,
                        agreements reached with the taxpayer, any relief provided to
                        the taxpayer, and any actions the taxpayer and the IRS are
                        required to take. The CDP determination letter also
                        provides an explanation of the right to judicial review by
                        filing a petition or complaint in the appropriate Federal Tax
                        Court or United States District Court within 30 calendar
                        days. The CDP summary notice of determination is issued
                        when the taxpayer confirms agreement with Appeals,
                        waives the right to judicial review, and waives the
                        suspension of levy action.


                        7
                          The taxpayer may waive this requirement.
                        8
                          Determination Letter (Form 3193 or Form 3194).
                        9
                          Summary Notice of Determination, Waiver of Right to Judicial
                        Review of a Collection Due Process Determination, and Waiver of
                        Suspension of Levy Action (Form 12257).
                        10
                           Decision Letter (Letter 3210).
                                                                                     Page 2
The Office of Appeals Should Strengthen and Reinforce Procedures for
                    Collection Due Process Cases

                        The CDP or Equivalent Hearing case is reviewed by the
                        hearing officer’s manager at the completion of the case to
                        evaluate whether the hearing officer followed all
                        requirements and procedures. In addition, the Appeals
                        Quality Measurement System evaluates quality of casework
                        nationwide by selecting a national sample. The Appeals
                        Quality Measurement System reported an 80 percent overall
                        compliance rate for CDP cases completed in Fiscal
                        Year (FY) 2004. This is down from 88 percent and
                        82 percent for cases completed in FYs 2003 and 2002,
                        respectively.
                        After Appeals has made a determination on a case, if the
                        taxpayer has a change in circumstances which affects the
                        Appeals determination or if the Collection function did not
                        carry out the determination, the taxpayer has the right to
                        return to Appeals. The taxpayer has this right as long as all
                        administrative remedies have been exhausted and until the
                        collection statute expires for the tax period. The Appeals
                        office that made the original determination generally retains
                        jurisdiction over the case.11
                        The Treasury Inspector General for Tax Administration
                        (TIGTA) is required to determine annually whether the IRS
                        complied with legal guidelines and procedures for the filing
                        of a notice of lien or a notice of intent to levy and the right
                        of the taxpayer to appeal.12 The TIGTA has divided this
                        requirement into three statutory audits: one to review the
                        filing of a notice of tax lien;13 one to review the intent to
                        levy;14 and one to review the rights of taxpayers to appeal
                        these issues,15 which is the focus of this report. This is the
                        fifth annual audit of this area conducted by the TIGTA.
                        This audit was performed in the National Headquarters of
                        the Chief, Appeals, in Washington, D.C., during the period
                        September 2004 through May 2005. The scope of the audit
                        covered CDP and Equivalent Hearing cases closed between
                        April 1 and September 30, 2004. The audit was conducted

                        11
                           C.F.R. §§ 301.6320-1(h) and 301.6330-1(h) (2002).
                        12
                           26 U.S.C. § 7803(d)(1)(A)(iii) and (iv) (Supp. IV 1998).
                        13
                           26 U.S.C. § 6320(a) (Supp. IV 1998).
                        14
                           26 U.S.C. § 6330(a) (Supp. IV 1998).
                        15
                           26 U.S.C. §§ 6320(b) and (c) and 26 U.S.C. §§ 6330(b) and (c)
                        (Supp. IV 1998).
                                                                                       Page 3
          The Office of Appeals Should Strengthen and Reinforce Procedures for
                              Collection Due Process Cases

                                  in accordance with Government Auditing Standards.
                                  Detailed information on our audit objective, scope, and
                                  methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  Overall, we could not determine if the IRS complied with
Some Office of Appeals Case
                                  the legal guidelines and required procedures to protect
Files Could Not Be Located or
                                  taxpayer rights when taxpayers appealed lien and levy
Were Incomplete
                                  actions because a significant portion of the Appeals closed
                                  case files we requested as part of our samples could not be
                                  located or did not contain sufficient documentation.
                                  We selected statistical samples of 80 cases each from the
                                  12,270 CDP cases and the 4,286 Equivalent Hearing cases
                                  closed by Appeals between April 1 and September 30, 2004.
                                  Appeals was unable to locate eight of the CDP and
                                  Equivalent Hearing case files requested for our samples.
                                  Consequently, we could not verify if all actions were
                                  appropriate and met the requirements of the law for the
                                  missing case files.
                                  In addition, 60 of the Appeals case files we received were
                                  incomplete—missing key documents needed to support and
                                  present Appeals’ findings. For example, the taxpayer’s
                                  hearing request (including any applicable attachments),
                                  which shows when and why the taxpayer was seeking
                                  assistance from Appeals, was not always in the case file.
                                  The CDP summary notice of determination was also
                                  missing from some CDP case files. This document is issued
                                  by Appeals when the taxpayer confirms agreement with the
                                  determination, waives the right to judicial review, and
                                  waives the suspension of levy action.
                                  Table 1 summarizes the number of Appeals CDP and
                                  Equivalent Hearing case files in our sample that could not
                                  be located or were incomplete, as well as the projected
                                  estimates for the 6-month period of our review.




                                                                                        Page 4
The Office of Appeals Should Strengthen and Reinforce Procedures for
                    Collection Due Process Cases

                               Table 1: Unable to Locate or Incomplete Appeals Case Files

                             Reason Case Could Not Be Reviewed for    Number of    Estimate of
                                 All Guidelines and Procedures       Sample Cases Total Cases16

                        CDP cases

                              Unable to locate case file                      5           767
                              Case file received did not include
                                                                             24         3,681
                              taxpayer hearing request
                              Case file received did not include
                                                                              2           307
                              summary notice of determination
                              Case file received did not include
                              taxpayer hearing request and did not
                                                                              1           154
                              include summary notice of
                              determination
                              Total unable to locate or incomplete
                                                                             32       4,90817
                              CDP case files
                        Equivalent Hearing cases

                              Unable to locate case file                      3           161
                              Case file received did not include
                                                                             33         1,768
                              taxpayer hearing request
                           Total unable to locate or incomplete
                                                                        36        1,929
                           Equivalent Hearing case files
                        Source: TIGTA sample of 80 CDP and 80 Equivalent Hearing cases
                        closed by Appeals between April 1 and September 30, 2004.

                        Appeals procedures and guidelines include a list of
                        documentation that should be retained in the closed case
                        file, which should include the taxpayer’s hearing request
                        and the Appeals determination provided to the taxpayer.
                        Because Appeals was unable to locate the case file or the
                        required documentation was not maintained, we could not
                        confirm the hearing officers’ actions and the appropriateness
                        of the Appeals determinations.
                        Despite internal guidance requiring Appeals to retain
                        pertinent documentation in a closed case file until the
                        collection statute date expires for the protested tax period
                        (generally 10 years from the date the tax was assessed),
                        Appeals officials stated, in practice, closed case files are



                        16
                             See Appendix IV for the statistical sample and estimate information.
                        17
                             The column does not add due to rounding.
                                                                                           Page 5
The Office of Appeals Should Strengthen and Reinforce Procedures for
                    Collection Due Process Cases

                        typically reduced to a minimum of documentation after the
                        judicial protest period has expired (90 calendar days).
                        Missing and incomplete files could affect taxpayers because
                        if a taxpayer has a change in circumstances that affects the
                        Appeals determination, or if the Collection function does
                        not properly carry out an Appeals determination, the case
                        can come back to Appeals. Because of the missing
                        documentation, similar documentation would have to be
                        gathered to effectively resolve the case.

                        Recommendations

                        The Chief, Appeals, should:
                        1. Evaluate case control procedures and identify
                           weaknesses in the system to determine what further
                           actions are needed to properly locate and retain
                           completed CDP and Equivalent Hearing cases until the
                           appropriate collection statute date expires.
                        Management’s Response: Appeals agreed with this
                        recommendation and has begun the process of centralizing
                        the closing and maintenance of office files for all CDP cases
                        into two campus18 locations, which should minimize
                        instances of missing files.
                        2. Remind personnel of the requirement to retain all
                           necessary documents supporting the Appeals decision,
                           including the taxpayer’s hearing request and, when
                           applicable, the CDP summary notice of determination,
                           as required in Appeals guidance and procedures. This
                           could be accomplished through nationwide
                           correspondence, local office meetings, and training
                           sessions.
                        Management’s Response: Appeals agreed with this
                        recommendation and will update its procedures accordingly.
                        Appeals will inform employees of document retention
                        requirements during monthly conference calls, post an
                        article on its webpage, and discuss the requirements at local


                        18
                          The campuses are the data processing arm of the IRS. They process
                        paper and electronic submissions, correct errors, and forward data to the
                        Computing Centers for analysis and posting to taxpayer accounts.
                                                                                         Page 6
          The Office of Appeals Should Strengthen and Reinforce Procedures for
                              Collection Due Process Cases

                                  training sessions. Appeals is also working on the Electronic
                                  Case File programming and equipment procurement for the
                                  creation of paperless files, which should minimize the
                                  instances of missing documents in closed case files.

Impartiality Statements Were      The CDP hearing should be conducted by a hearing officer
Not Documented As Required        who had no prior involvement with respect to the unpaid
for Collection Due Process        tax; however, the taxpayer may waive this requirement. To
Determinations                    comply with this requirement, Appeals procedures require
                                  CDP determination letters to include an impartiality
                                  statement. An impartiality statement is also required to be
                                  documented in the case file when a CDP summary notice of
                                  determination is issued (this is a different type of letter
                                  issued by Appeals in cases for which the taxpayer confirms
                                  agreement with the determination, waives the right to
                                  judicial review, and waives the suspension of levy action).
                                  We found the impartiality statement, or a waiver from the
                                  taxpayer, was not always mentioned in the letters or notices
                                  provided to the taxpayers. Based on the documentation in
                                  the case files, we could not determine if the hearing officers
                                  had prior involvement with the unpaid tax. In our statistical
                                  sample of 80 CDP cases, there were 49 cases in which
                                  Appeals issued a CDP determination letter and 18 cases in
                                  which Appeals issued a CDP summary notice of
                                  determination. However, five of the cases with a CDP
                                  determination letter and two of the cases with a CDP
                                  summary notice of determination did not contain an
                                  impartiality statement or supporting documentation in the
                                  case file. Based on our sample, we estimate 1,074 CDP
                                  cases did not contain impartiality statements.19
                                  While the lack of impartiality statements in the letters or
                                  documentation in the Appeals case files appears to be an
                                  oversight and does not necessarily indicate a lack of
                                  impartiality, hearing officers are required to certify and
                                  document their impartiality. Appeals officials stated the
                                  impartiality statement should be contained in either the
                                  determination letter or the Appeals case file documentation;
                                  however, it appears hearing officers are not consistently
                                  following the procedures.


                                  19
                                       See Appendix IV for the statistical sample and estimate information.
                                                                                                     Page 7
The Office of Appeals Should Strengthen and Reinforce Procedures for
                    Collection Due Process Cases

                        Because the impartiality of the hearing officer is a legal
                        requirement, the documentation of no prior involvement
                        should always be included in letters provided to taxpayers
                        and supporting documentation in the case file. Without that
                        documentation, there is no evidence to inform the taxpayer
                        and any reviewing court that the hearing officer had no prior
                        involvement with the unpaid tax liability under review and,
                        therefore, could provide an impartial hearing.
                        We reported this same concern in a prior TIGTA report.20
                        Appeals management responded to that report by stating
                        they would reiterate procedures for documenting the
                        impartiality statement to hearing officers. The Appeals
                        Quality Measurement System also found that hearing
                        officers did not properly document the impartiality
                        statement in 31 percent of the FY 2003 CDP cases reported
                        in its FY 2004 Annual Report. Appeals management uses
                        the Appeals Quality Measurement System’s annual results
                        to identify areas needing improvement, yet lack of
                        documentation of impartiality statements continues to be a
                        significant problem.

                        Recommendation

                        3. The Chief, Appeals, should emphasize that hearing
                           officers must provide impartiality statements in
                           determination letters and include clear documentation
                           supporting the statements in the Appeals case files.
                           Managers should verify whether this requirement has
                           been met during their reviews of completed cases.
                        Management’s Response: Appeals agreed with this
                        recommendation. Appeals has added guidance for
                        documenting “no prior involvement” when securing a CDP
                        summary notice of determination and will make it
                        mandatory to include a contact letter that incorporates the
                        necessary wording to meet the impartiality documentation
                        requirement. Additionally, Appeals will emphasize to
                        employees the need for the impartiality statement through
                        quarterly meetings with the Area Collection coordinators

                        20
                          Appeals Complied With the Legal Requirements for Collection Due
                        Process and Equivalent Hearings (Reference Number 2003-10-156,
                        dated July 2003).
                                                                                    Page 8
          The Office of Appeals Should Strengthen and Reinforce Procedures for
                              Collection Due Process Cases

                                  and will monitor compliance through the Appeals Quality
                                  Measurement System.
                                  Appeals procedures state the determination letter should
Determination Letters Were
                                  contain a clear and detailed explanation of the basis for the
Not Clear or Did Not Address
                                  hearing officer’s decision. This should, at a minimum,
All Issues Raised by the
                                  include three required elements:
Taxpayers
                                  •   Verification that the requirements of applicable laws
                                      and administrative procedures have been met.
                                  •   Issues raised by the taxpayer.
                                  •   Whether any proposed collection action balances the
                                      need for the efficient collection of taxes with the
                                      legitimate concern of the taxpayer that any collection
                                      action be no more intrusive than necessary.
                                  In the 49 cases in our sample in which Appeals issued a
                                  CDP determination letter, we found 2 cases in which the
                                  hearing officers did not clearly explain the Appeals decision
                                  and did not follow guidance, such as in the Determination
                                  Letter Guide, for preparation of the determination letters.
                                  •   One case involved both a lien and a levy on various tax
                                      periods. The determination letter did not use the
                                      suggested table format in its background section to
                                      clearly identify the tax periods involved. As a result,
                                      the Appeals decision was not clear about which tax
                                      periods were covered and how they were resolved.
                                  •   The other case involved a levy action that was not
                                      sustained because the balance was paid in full. The
                                      hearing officer’s conclusion stated “levy is denied.”
                                      The determination letter should have explained the levy
                                      action was appropriate; however, the balance was paid
                                      in full and the levy was no longer needed and therefore
                                      not sustained.
                                  In addition to the determination letters not having clear
                                  explanations, we found three other cases in our sample in
                                  which the hearing officers failed to discuss in the
                                  determination letters specific issues stated by the taxpayers
                                  in the hearing requests.
                                  •   In the first case, the taxpayer asked for an installment
                                      agreement; however, there was no mention of this
                                      request in the determination letter.
                                                                                          Page 9
The Office of Appeals Should Strengthen and Reinforce Procedures for
                    Collection Due Process Cases

                         •      In the second case, the taxpayer asked for additional
                                time to submit an Offer in Compromise that was not
                                mentioned in the determination letter.
                         •      In the third case, the taxpayer asked for a hearing
                                involving three tax periods, but the determination letter
                                addressed only two tax periods without explaining why
                                the remaining tax period was not eligible for a hearing.
                        We estimate 307 CDP cases in our review period did not
                        include determination letters with clear explanations of the
                        hearing officers’ decisions. We also estimate an additional
                        461 CDP cases in our review period did not include
                        determination letters that addressed all specific issues raised
                        in the taxpayers’ hearing requests.21
                        Determination letters that do not clearly explain the hearing
                        officers’ decisions or do not include all issues raised by the
                        taxpayers may cause confusion and increase taxpayer
                        burden. Taxpayers and any courts reviewing the cases may
                        be unable to determine whether applicable laws and
                        administrative procedures were followed and whether
                        relevant issues presented by the taxpayers were considered.
                        Moreover, a determination letter that does not include the
                        three required elements may not adequately communicate to
                        the taxpayer that the proposed collection action balances the
                        need for efficient collection of taxes with the concerns of
                        the taxpayer. Appeals needs to continue to emphasize
                        compliance with procedures that address the content of the
                        CDP determination letter.

                        Recommendation

                        4. The Chief, Appeals, should remind hearing officers, and
                           managers conducting case reviews, of the procedure to
                           provide a clear and complete explanation in
                           determination letters and to adhere to guidance such as
                           that contained in the Determination Letter Guide. These
                           reminders could be accomplished through nationwide
                           correspondence, local office meetings, and training
                           sessions.



                        21
                             See Appendix IV for the statistical sample and estimate information.
                                                                                         Page 10
          The Office of Appeals Should Strengthen and Reinforce Procedures for
                              Collection Due Process Cases

                                  Management’s Response: Appeals agreed with this
                                  recommendation and has incorporated an example of how to
                                  prepare the determination letter in both the Determination
                                  Letter Guide and the latest revision of Appeals procedures.
                                  The changes will be highlighted through meetings with Area
                                  Collection Contact coordinators and shared at group
                                  meetings with employees working CDP cases.
                                  When a CDP hearing request is received timely, collection
The Office of Appeals Is Not
                                  activity is suspended from the hearing request received date
Consistently Verifying the
                                  until either the date the Appeals determination becomes
Suspension of Collection
                                  final or the date of withdrawal by the taxpayer.22
Activity
                                  Suspension of collection activity is initiated by the entry of
                                  a code into the taxpayer’s account on the IRS computer
                                  system. Another code is later entered to remove the
                                  suspension.23 These codes are generally entered by
                                  Collection function employees before and after the Appeals
                                  hearing. The codes are used to communicate to other IRS
                                  employees when suspension of collection activity is in
                                  effect and to recalculate the expiration date for the
                                  collection statute.
                                  In 10 of the 80 cases we sampled, the Appeals case files did
                                  not contain documentation to indicate verification of the
                                  timeliness of the hearing request and the date suspension of
                                  collection activity should begin. In 2 of the 10 sample
                                  cases, the computer codes were not entered into the
                                  taxpayers’ accounts when Appeals received the hearing
                                  requests.
                                   •   One case was in Appeals for approximately 4 months
                                       before the hearing request was withdrawn by the
                                       taxpayer. This taxpayer’s account did not include the
                                       code necessary to indicate suspension of collection
                                       activity; consequently, the expiration date for the
                                       collection statute was not recalculated.
                                   •   The second case did not have the appropriate computer
                                       codes input to the taxpayer’s account until the case was
                                       completed by Appeals. Approximately 14 months
                                       passed from when the hearing request was received by

                                  22
                                    C.F.R. §§ 301.6320-1(g) and 301.6330-1(g) (2002).
                                  23
                                    Transaction Code (TC) 520 is used for beginning and TC 521 is used
                                  for concluding the collection activity suspension period.
                                                                                              Page 11
The Office of Appeals Should Strengthen and Reinforce Procedures for
                    Collection Due Process Cases

                                the IRS to when Appeals completed the hearing.
                                During this time, the taxpayer’s account could have
                                been subject to ongoing collection activity. Although
                                the collection statute was recalculated at the conclusion
                                of the Appeals hearing, IRS employees using
                                information on the taxpayer’s account could have
                                inappropriately taken collection action while the
                                Appeals hearing was in process.
                        Although the codes are generally entered by other IRS
                        employees, one of the first tasks of the hearing officer is to
                        verify the timeliness of the hearing request and the date the
                        suspension of collection activity began. According to
                        Appeals procedures, this verification must be documented in
                        the Appeals case file and included in the determination letter
                        if one is issued. Without this verification, a taxpayer may
                        be denied his or her right to suspension of collection activity
                        while the hearing request is in Appeals. IRS employees
                        using information on the taxpayer’s account could
                        inappropriately attempt a collection action. In addition, the
                        expiration date for the collection statute may not be
                        recalculated after the Appeals hearing, which could affect
                        the collection of tax revenue.
                        We estimate 1,534 CDP cases in our review period did not
                        contain the verification statement and supporting
                        documentation. Of these, we estimate 307 did not have
                        collection activity suspended for the duration of the Appeals
                        hearing. In addition, we estimate 154 CDP cases in our
                        review period did not have the expiration date for the
                        collection statute recalculated.24
                        This appears to be an ongoing problem. In its FY 2004
                        results, the Appeals Quality Measurement System reported
                        hearing officers either did not verify or did not adequately
                        document the collection activity suspension date for
                        29 percent of the CDP cases completed in FY 2003.
                        Appeals needs to ensure hearing officers confirm and
                        document the suspension of collection activity is correct at
                        the start of a CDP hearing, to protect taxpayer rights and tax
                        revenue.



                        24
                             See Appendix IV for the statistical sample and estimate information.
                                                                                         Page 12
          The Office of Appeals Should Strengthen and Reinforce Procedures for
                              Collection Due Process Cases

                                  Recommendation

                                  5. The Chief, Appeals, should remind hearing officers, and
                                     managers conducting case reviews, of the procedure to
                                     verify hearing requests are properly screened for
                                     timeliness and correctness of the collection activity
                                     suspension. In addition, a statement and supporting
                                     documentation should be included in the Appeals case
                                     file to indicate verification was conducted.
                                  Management’s Response: Appeals agreed with the
                                  recommendation and is planning to assume full
                                  responsibility for the initial input of the computer codes that
                                  signal the suspension of collection activity and the
                                  recalculation of the expiration date for the collection statute.
                                  Until Appeals assumes this responsibility in late 2005,
                                  employees will be reminded of the verification and
                                  documentation requirements through meetings and training.
                                  If a taxpayer’s CDP hearing request is filed more than
Equivalent Hearing Cases Were
                                  30 calendar days plus 5 business days after the filing of the
Properly Classified
                                  lien or more than 30 calendar days after the date of the levy
                                  notice, Appeals will provide the taxpayer an Equivalent
                                  Hearing. This is similar to a CDP hearing, but the IRS is
                                  not required to suspend collection activity and the taxpayer
                                  does not have the right to a judicial review.
                                  We selected a statistical sample of 80 Equivalent Hearing
                                  cases closed between April 1 and September 30, 2004, to
                                  evaluate whether any of these taxpayers were entitled to
                                  CDP hearings. For the 80 cases we sampled, Appeals
                                  provided 77 of the case files; however, only 44 contained
                                  the taxpayer hearing requests. Based on the timing of the
                                  hearing requests, other information in the Appeals case files,
                                  tax account information, and discussions with Appeals
                                  officials, we concluded these 44 cases were properly
                                  classified as Equivalent Hearing cases.




                                                                                          Page 13
           The Office of Appeals Should Strengthen and Reinforce Procedures for
                               Collection Due Process Cases

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The objective of this audit was to determine whether the Internal Revenue Service (IRS)
complied with the provisions of 26 United States Code (U.S.C.) Sections (§§) 6320 and 6330
when taxpayers exercised their right to appeal the filing of a lien or a notice of intent to levy.1
To accomplish our objective, we:
I.   Determined the status of corrective actions resulting from prior Treasury Inspector General
     for Tax Administration (TIGTA) audit reports by conducting interviews with Office of
     Appeals (Appeals) officials, as well as obtaining documentation supporting the
     implementation of the proposed IRS corrective actions and other procedural changes.
II. Determined whether the IRS is in compliance with 26 U.S.C. §§ 6320 and 6330 when
    handling Collection Due Process (CDP) Appeals hearing requests.
     A. Obtained a computer extract of CDP cases closed between April 1 and
        September 30, 2004, from the Appeals Centralized Database System (ACDS) file
        maintained at the TIGTA Data Center Warehouse.2 We validated the computer extract
        using information from the TIGTA Data Center Warehouse, reviewed appropriate data
        within fields requested, compared extract data to source documents (using the sample in
        Step II.B.), and compared population totals to information obtained from Appeals
        officials.
     B. Selected a statistical sample of 80 cases from the population of 12,270 CDP cases
        closed by Appeals between April 1 and September 30, 2004, based on a confidence
        level of 90 percent, a precision rate of ±6 percent, and an expected error rate of
        12 percent.
     C. For the CDP sample, obtained the Appeals case files including the Case Activity
        Records, Case Summary Cards, Requests for a Collection Due Process Hearing
        (Form 12153), Determination Letters, Appeals Case Memoranda, and Integrated
        Collection System3 or Automated Collection System histories.4




1
  26 U.S.C. §§ 6320 and 6330 (Supp. IV 1998).
2
  The ACDS is a computerized case control system used to control and track cases throughout the appeal process.
3
  The Integrated Collection System provides workload management, case assignment/tracking, inventory control,
electronic mail, case analysis tools, and management information capabilities to support tax collection fieldwork.
4
  The Automated Collection System is a telephone contact system through which telephone assistors collect unpaid
taxes and secure tax returns from delinquent taxpayers that have not complied with previous notices.
                                                                                                          Page 14
              The Office of Appeals Should Strengthen and Reinforce Procedures for
                                  Collection Due Process Cases

       D. Reviewed the CDP sample case files and determined whether the following
          requirements of 26 U.S.C. §§ 6320 (b) and (c) and 6330 (b) and (c) had been addressed
          in the hearings by the hearing officers:5
             1.   Verification that the requirements of applicable laws and administrative procedures
                  had been met.
             2.   Whether any proposed collection actions balanced the need for the efficient
                  collection of taxes with the legitimate concerns of the taxpayers that any collection
                  action be no more intrusive than necessary.
             3.   The taxpayers were provided with impartial hearing officers or waived this
                  requirement.
             4.   The taxpayers were allowed to raise issues at the hearings relating to the unpaid tax
                  or the proposed lien or levy actions, including appropriate spousal defenses,
                  challenges to the appropriateness of collection activities, offers of collection
                  alternatives, or the underlying liabilities.
       E. Determined whether Appeals complied with current Internal Revenue Manual
          guidelines for documenting CDP case actions.
       F. Discussed potential CDP exception cases with Appeals officials and identified and
          confirmed causes.
III. Determined whether CDP cases were misclassified as Equivalent Hearing cases.
       A. Obtained a computer extract of Equivalent Hearing cases closed between April 1 and
          September 30, 2004, from the ACDS file maintained at the TIGTA Data Center
          Warehouse. We validated the computer extract using information from the TIGTA
          Data Center Warehouse, reviewed appropriate data within fields requested, compared
          extracted data to source documents (using the sample in Step III.B.), and compared
          population totals to information obtained from Appeals officials.
       B. Selected a statistical sample of 80 cases from the population of 4,286 Equivalent
          Hearing cases closed by Appeals between April 1 and September 30, 2004, based on a
          confidence level of 90 percent, a precision rate of +3.9 percent, and an expected error
          rate of 4 percent.
       C. For the Equivalent Hearing sample, obtained the Appeals case files including the Case
          Activity Records, Case Summary Cards, Forms 12153, Determination Letters, Appeals
          Case Memoranda, and Integrated Collection System or Automated Collection System
          histories.
       D. Reviewed the Equivalent Hearing sample case files and determined whether any CDP
          cases were misclassified as Equivalent Hearing cases as follows:


5
    Hearing officers are either Appeals Officers or Settlement Officers.
                                                                                                Page 15
           The Office of Appeals Should Strengthen and Reinforce Procedures for
                               Collection Due Process Cases

          1.    Reviewed the case files to obtain the taxpayers’ written hearing requests and
                determined whether the files contained the envelopes in which the requests were
                sent. From these documents, we extracted the dates the taxpayers signed the
                requests, the IRS date stamps showing when the cases were received by the IRS,
                and the postmark dates on the envelopes.
          2.    Reviewed Integrated Data Retrieval System (IDRS)6 transcripts for Equivalent
                Hearing cases and determined, based on the dates that certain computer codes were
                entered on the account, the dates of the notices of lien or proposed levy action. We
                reviewed the ACDS Case Summary Cards and identified the dates recorded by
                Appeals as the dates hearings were requested by the taxpayers. We then compared
                the dates recorded in the ACDS Case Summary Cards to the dates indicated on the
                hearing requests and the IDRS transcripts to identify discrepancies.
          3.    Reviewed the recorded hearing request dates with Appeals procedures to determine
                whether the guidance was followed.
          4.    Discussed Equivalent Hearing cases with Appeals officials.




6
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.



                                                                                                          Page 16
         The Office of Appeals Should Strengthen and Reinforce Procedures for
                             Collection Due Process Cases

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Aaron R. Foote, Audit Manager
Yasmin B. Ryan, Lead Auditor
Daniel M. Quinn, Senior Auditor
Stephanie K. Foster, Auditor
Frank I. Maletta, Auditor
Carolyn D. Miller, Auditor




                                                                                      Page 17
        The Office of Appeals Should Strengthen and Reinforce Procedures for
                            Collection Due Process Cases

                                                                        Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Chief, Appeals AP




                                                                               Page 18
             The Office of Appeals Should Strengthen and Reinforce Procedures for
                                 Collection Due Process Cases

                                                                                                   Appendix IV


                                              Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
      •    Taxpayer Rights and Entitlements – Potential; 6,749 closed Collection Due Process
           (CDP) cases either could not be located by the Office of Appeals (Appeals) or did not
           contain 1 or more of the following: sufficient documentation, sufficient determination
           letter, and/or verification of the suspension of collection activity (see page 4).
Methodology Used to Measure the Reported Benefit:
Using a computer extract from the Appeals Centralized Database System (ACDS),1 we identified
a population of 12,270 CDP cases closed between April 1 and September 30, 2004. We selected
a statistical sample of 80 CDP cases and found 44 (55 percent) either could not be located by
Appeals or did not contain 1 or more of the following: sufficient documentation, sufficient
determination letter, and/or verification of the suspension of collection activity. Using a
90 percent confidence level and a precision of ±9.12 percent, we estimate 6,749 CDP cases could
affect taxpayer rights and entitlements. The 44 CDP cases are comprised of the following:
      o There were 32 CDP case files which either could not be located by Appeals or did not
        contain documentation sufficient to determine if the IRS complied with the guidelines
        and procedures to protect taxpayer rights when appealing lien and levy actions
        (see page 5). Using a 90 percent confidence level, we estimate:
            Reason CDP Case Could Not Be Reviewed Number of                  Error       Estimate of Precision of
                for All Guidelines and Procedures        Sample Cases        Rate        Total Cases  Estimate
             Unable to locate case file                            5           6.25%            767      ±4.44%
             Case file received did not include taxpayer
                                                                  24             30%           3,681        ±8.40%
             hearing request
             Case file received did not include summary
                                                                   2            2.5%             307        ±2.86%
             notice of determination
             Case file received did not include taxpayer
             hearing request and did not include                   1           1.25%             154        ±2.04%
             summary notice of determination
                                               Totals             32             40%          4,9082        ±8.98%




1
    The ACDS is a computerized case control system used to control and track cases throughout the appeal process.
2
    The column does not add due to rounding.
                                                                                                           Page 19
             The Office of Appeals Should Strengthen and Reinforce Procedures for
                                 Collection Due Process Cases

      o There were 7 CDP case files (8.75 percent) which did not contain an impartiality
        statement in the determination letters or in the case files (see page 7). Using a 90 percent
        confidence level and a precision of ±5.18 percent, we estimate 1,074 cases did not
        include an impartiality statement in the determination letters or documentation in the case
        files.
      o There were 5 CDP case files which did not contain clear and detailed descriptions in the
        determination letters or did not address all issues raised by the taxpayers in the
        determination letters (see page 9). Using a 90 percent confidence level, we estimate:
                   Reason Determination Letter             Number of     Error    Estimate of Precision of
                         Was Not Adequate                 Sample Cases   Rate     Total Cases  Estimate
            Hearing officer did not provide a clear and
                                                                    2      2.5%         307       ±2.86%
            detailed description
            Hearing officer did not address all issues
                                                                    3     3.75%         461       ±3.48%
            raised by the taxpayer
                                                Totals              5     6.25%         7673      ±4.44%

      o There were 10 CDP cases which did not contain documentation to indicate verification of
        the timeliness of the hearing request and the date suspension of collection activity should
        begin. In 2 of the 10 cases, the computer codes were not entered into the taxpayers’
        accounts when Appeals received the hearing requests (see page 11). Using a 90 percent
        confidence level, we estimate:
            Reason Suspension of Collection Activity      Number of      Error    Estimate of Precision of
                        Was Not Adequate                 Sample Cases    Rate     Total Cases  Estimate
             Case file did not contain documentation to
             indicate verification of the timeliness of
                                                                  10      12.5%        1,534      ±6.06%
             the hearing request and the date suspension
             of collection activity should begin
             Computer code was not entered into the
             taxpayer’s account when Appeals received              2       2.5%         307       ±2.86%
             the hearing request

Type and Value of Outcome Measure:
      •    Taxpayer Rights and Entitlements – Potential; 1,929 closed Equivalent Hearing cases
           could not be located by Appeals or did not contain documentation sufficient to determine
           if these were properly classified as Equivalent Hearing cases (see page 4).
Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS, we identified a population of 4,286 Equivalent
Hearing cases closed between April 1 and September 30, 2004. We selected a statistical sample
of 80 Equivalent Hearing cases and found 36 that Appeals was unable to locate or that did not


3
    The column does not add due to rounding.
                                                                                                  Page 20
          The Office of Appeals Should Strengthen and Reinforce Procedures for
                              Collection Due Process Cases

contain documentation sufficient to determine if they were properly classified as Equivalent
Hearing cases (see page 5). Using a 90 percent confidence level, we estimate:
         Reason Equivalent Hearing Case          Number of     Error     Estimate of Precision of
              Could Not Be Reviewed             Sample Cases   Rate      Total Cases  Estimate
       Unable to locate case file                         3      3.75%           161     ±3.46%
       Case file received did not include
                                                         33    41.25%          1,768     ±8.97%
       taxpayer hearing request
                                       Totals            36       45%          1,929     ±9.06%

Type and Value of Outcome Measure:
   •    Revenue Protection – Potential; 154 closed CDP cases did not have the expiration date
        for the collection statute recalculated (see page 11).
Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS, we identified a total population of 12,270 CDP cases
closed between April 1 and September 30, 2004. We selected a statistical sample of 80 CDP
cases and found 1 case (1.25 percent) that did not have the expiration date for the collection
statute recalculated, which could affect the collection of tax revenue. Using a 90 percent
confidence level and a precision of ±2.04 percent, we estimate 154 cases did not have the
expiration date for the collection statute recalculated.




                                                                                             Page 21
The Office of Appeals Should Strengthen and Reinforce Procedures for
                    Collection Due Process Cases

                                                                 Appendix V


           Management’s Response to the Draft Report




                                                                       Page 22
The Office of Appeals Should Strengthen and Reinforce Procedures for
                    Collection Due Process Cases




                                                                       Page 23
The Office of Appeals Should Strengthen and Reinforce Procedures for
                    Collection Due Process Cases




                                                                       Page 24
The Office of Appeals Should Strengthen and Reinforce Procedures for
                    Collection Due Process Cases




                                                                       Page 25
The Office of Appeals Should Strengthen and Reinforce Procedures for
                    Collection Due Process Cases




                                                                       Page 26
